HHS/OIG-Audit--"Report on the Audit of the Food and Drug Administration's Revolving Fund for Certification and Other Services for Fiscal Year 1994, (A-17-94-00040)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audit of the Food and Drug Administration's Revolving
Fund for Certification and Other Services for Fiscal Year 1994," (A-17-94-00040)
September 25, 1995
Complete Text of Report is available in PDF format
(641 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of the certified public accounting firm,
Gardiner, Kamya & Associates' (GK&A) audit of the Food and Drug Administration's
Revolving Fund for Certification and Other Services financial statements for
the fiscal year ended September 30, 1994. The GK&A expressed an unqualified
opinion on these statements.